           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  PERFORMANCE INDICATOR AUDIT:
        PROCESSING TIME


  October 2004       A-02-04-14072




AUDIT REPORT




                 .
                                  Mission

We improve SSA programs and operations and protect them against fraud,
waste, and abuse by conducting independent and objective audits,
evaluations, and investigations. We provide timely, useful, and reliable
information and advice to Administration officials, the Congress, and the
public.

                                 Authority

The Inspector General Act created independent audit and investigative
units, called the Office of Inspector General (OIG). The mission of the OIG,
as spelled out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and
    proposed legislation and regulations relating to agency programs
    and operations.
   Keep the agency head and the Congress fully and currently informed
    of problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the
    reviews.

                                   Vision

By conducting independent and objective audits, investigations, and
evaluations, we are agents of positive change striving for continuous
improvement in the Social Security Administration's programs, operations,
and management and in our own office.
                                     SOCIAL SECURITY

MEMORANDUM

Date:   October 25, 2004                                                        Refer To:

To:     The Commissioner

From:   Acting Inspector General

Subject: Performance Indicator Audit: Processing Time (A-02-04-14072)



        We contracted with PricewaterhouseCoopers, LLP (PwC) to evaluate 16 of the Social
        Security Administration’s performance indicators established to comply with the
        Government Performance and Results Act. The attached final report presents the
        results of two of the performance indicators PwC reviewed. For the performance
        indicators included in this audit, PwC’s objectives were to:
           •   Test critical controls over the data generation and calculation processes for the
               specific performance indicator,
           •   Assess the overall adequacy, accuracy, reasonableness, completeness, and
               consistency of the performance indicator and supporting data, and
           •   Determine if each performance indicator provides meaningful measurement of
               the program and the achievement of its stated objectives.

        This report contains the results of the audit for the following indicators:

           •   Average Processing Time for Initial Disability Claims (Disability Insurance and
               Supplemental Security Income)
           •   Average Processing Time for Hearings

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                   S
                                                   Patrick P. O’Carroll, Jr.

        Attachment
MEMORANDUM

Date:     October 12, 2004

To:       Acting Inspector General

From:     PricewaterhouseCoopers LLP

Subject: Performance Indicator Audit: Processing Time (A-02-04-14072)



The Government Performance and Results Act (GPRA)1 of 1993 requires the
Social Security Administration (SSA) to develop performance indicators that
assess the relevant service levels and outcomes of each program activity.2
GPRA also calls for a description of the means employed to verify and validate
the measured values used to report on program performance.3

To enhance the practical use of performance information, the Office of
Management and Budget (OMB), in collaboration with other Federal agencies,
has developed the Program Assessment Rating Tool (PART), comprised of
assessment criteria on program performance and management. The PART
establishes a high, "good government" standard of performance and will be used
to rate programs in an open, public fashion.4

OBJECTIVE
For each performance indicator included in this audit, our objectives were to:

          1. Test critical controls over the data generation and calculation
             processes for the specific performance indicator.
          2. Assess the overall adequacy, accuracy, reasonableness,
             completeness, and consistency of the performance indicator and
             supporting data.
          3. Determine if each performance indicator provides meaningful
             measurement of the program and the achievement of its stated
             objectives.

1
    Pub. L. No. 103-62, 107 Stat. 285.
2
    31 U.S.C. §§ 1115(a)(4).
3
    31 U.S.C. §§ 1115(a)(6).
4
    http://www.whitehouse.gov/omb/budintegration/part_assessing2004.html.


Performance Indicator Audit: Processing Time (A-02-04-14072)                     1
We audited the following performance indicators as stated in the SSA Fiscal Year
(FY) 2003 Performance and Accountability Report (PAR):

         Performance                                                 FY 2003 Reported
           Indicator                        FY 2003 Goal                  Results
    Average Processing
    Time for Initial Disability
    Claims (Disability
                                               104 Days                  97 Days
    Insurance (DI) and
    Supplemental Security
    Income (SSI))
    Average Processing
    Time for Hearings                          352 Days                  344 Days
    (Days)

BACKGROUND
SSA oversees two disability programs: the DI and SSI programs. The DI program,
authorized by Title II of the Social Security Act,5 provides income for eligible workers
who have qualifying disabilities and for eligible members of their families before those
workers reach retirement age.6 The SSI Program, authorized by Title XVI of the Social
Security Act,7 was designed as a needs-based program to provide or supplement the
income of aged, blind, and/or disabled individuals with limited income and resources.8

To determine eligibility for both DI and SSI, the applicant must first file a disability claim
with SSA. This is typically accomplished through an appointment or walk-in visit to one
of SSA’s approximately 1,300 field offices (FO). Interviews are conducted by a claims
representative (CR) with the applicants via the telephone or in person to determine the
applicant’s non-medical eligibility on the basis of income, resources, and work history.
Basic medical information concerning the disability, medical treatments, and
identification of treating sources is also obtained. The claims representative inputs the
applicant’s information into the Modernized Claims System (MCS) for DI claims or the
Modernized SSI Claims System (MSSICS) for SSI claims. A relatively minor number of
DI and SSI cases are input through the SSA Claims Control System (SSACCS). The
SSACCS is used to process claims that cannot be processed through MCS or MSSICS.

Upon meeting the non-medical eligibility requirements, SSA sends the DI and SSI
claims file to a State Disability Determination Services (DDS) office. The DDS is
responsible for determining claimants’ disabilities and ensuring that adequate evidence

5
    Social Security Act, sections 201-233 (42 U.S.C. 401-433).
6
    http://www.ssa.gov/OP_Home/ssact/title02/0200.htm.
7
    Social Security Act, sections 1601-1631 (42 U.S.C. 1381-1383).
8
    http://www.ssa.gov/OP_Home/ssact/title16b/1601.htm.


Performance Indicator Audit: Processing Time (A-02-04-14072)                               2
is available to support its determinations. Once the DDS makes a disability
determination, it inputs the disability determination information into the National
Disability Determination Service System (NDDSS). It then notifies the FO, and a letter
is sent informing the claimant of the determination and of his/her appeal rights. The
NDDSS transmits the disability determination data to the appropriate applicant’s records
within MCS and the SSI Records Maintenance System (SSIRMS). The closure date is
used in the processing time calculation.

Applicants whose initial disability determination is denied have 60 days from the date
they are notified of the determination to file for reconsideration. If the claim is denied on
reconsideration, they have 60 days from the date they are notified to request a hearing
before an administrative law judge (ALJ) of the Office of Hearings and Appeals (OHA).
(For additional detail of this process, refer to the flowcharts in Appendix C.)

RESULTS OF REVIEW
Average Processing Time for Initial Disability Claims (DI and SSI)

         FY 2003 Goal: 104 days
         Actual FY 2003 Performance: 97 days
         SSA met the goal.9

Indicator Background

The Work Management System (WMS) maintains claims data from MCS. The
SSACCS maintains its own claims data. When a determination is made for a DI claim,
the Management Information Initial Claims Record (MIICR) reads the clearance
information from the WMS or from the SSACCS. MIICR writes data for the completed
claim into the MIICR Master File, which creates a file of completed claims for the week.
MIICR also creates a monthly file of completed claims and produces the monthly Field
Office Initial Disability Claims Report – Processing Time.
When a determination is made for an SSI claim, an initial determination date is posted
to the Supplemental Security Record (SSR) by the DDS, and claim data is forwarded to
the SSI Claims Exception Control System. This system ensures the claim data is
complete before the data is sent to the SSI Claims Report (SSICR), which is a process
that compiles the claims data for inclusion in the Field Office Initial SSI Blind & Disabled
Claims Report – Processing Time. (For additional detail of this process, refer to the
flowcharts located in Appendix C.)
SSA calculates the initial disability claims processing times (days) for inclusion in the
PAR by obtaining monthly figures from the Field Office Initial Disability Claims Report –
Processing Time and Field Office Initial SSI Blind & Disabled Claims Report –


9
    SSA’s FY 2003 PAR.


Performance Indicator Audit: Processing Time (A-02-04-14072)                               3
Processing Time. These monthly figures are summed to obtain a grand total of both the
Title II and Title XVI processing time. (See the formulas below.)


                                                           Sum of the 12 months (October
  Total Processing Time for Title II                 =     2002 through September 2003)
        and Title XVI claims                               processing times for Title II and
                                                           Title XVI claims

Similar to the Title II and Title XVI processing time, the total number of claims
processed is obtained per the Field Office Initial Disability Claims Report – Processing
Time and Field Office Initial SSI Blind & Disabled Claims Report – Processing Time on
a monthly basis and manually recorded onto a spreadsheet. These monthly figures are
summed to obtain a total of both the Title II and Title XVI claims processed. (See the
formula below.)


                                                           Sum of the 12 months (October
Total Claims for Title II and Title XVI              =     2002 through September 2003) for
                                                           Title II and Title XVI claims

The formulas within the spreadsheet calculate the average processing time for DI and
SSI for the year. The formula divides the total processing time for Title II and Title XVI
claims by the total claims for Title II and Title XVI. (See the formula below.)

                                                           Total Processing Time for Title II
                                                           and Title XVI claims
  Average Processing Time for DI
                                                    =
             and SSI
                                                           Total Claims for Title II and Title XVI


Findings

We were unable to recalculate the results of this performance indicator as reported in
the PAR. The detailed data used to calculate the Title XVI processing time was not
readily available. The data was not archived, and recreating the data for this audit was
not considered to be worth the cost. The Supplemental Security Income Processing
Time (SSIPT) application replaced SSICR, the previous Title XVI processing time
application, on October 1, 2003, so the FY 2003 SSICR data was not retained. The
Title II detailed data was available for a rolling 56-day period, but similar to the Title XVI
data, it was not archived. Accordingly, we selected and recalculated the Title II
processing time for the month of June 2003. We concluded that the Title II processing
time for the month of June 2003 was accurate.




Performance Indicator Audit: Processing Time (A-02-04-14072)                                         4
SSA had not documented policies and procedures related to the formal process to
collect, review and make available the performance indicator data to Agency
management. OMB Circulars A-123 and A-127 provide guidance for the retention of
this data. Documentation describing the automated and manual controls involved in the
calculation and reporting of the performance indicator do not exist.

We tested the logical access controls for the Title II and Title XVI mainframe datasets
used to calculate the indicator and found that a total of 17 SSA employees and
contractors had the "All" access designation within the Top Secret security software to
these datasets. This level of access would allow users to create, delete and update any
of the data (or datasets) contained within the datasets we reviewed without appropriate
review or approval of the changes. This level of access prevents SSA from ensuring
the integrity of this production data. Additionally, by allowing employees and
contractors to have the "All" access designation, SSA is not conforming to the principles
of "least privileged access" or segregation of duties. SSA is in the process of
completing the Standardized Security Profile Project (SSPP). The goal of this project is
address the principles of “least privileged access.”

All of the source code for the SSICR processing system had not been maintained.
Therefore, if a failure is encountered, it is not possible to review the entire source code
to identify and correct the error. SSICR was replaced by SSIPT on October 1, 2004.

An audit trail for transactions processed through the SSACCS was not produced or
reviewed. Therefore, claims entered through the normal application process may not be
correctly processed. Claims data may be altered, lost, or misidentified during input and
incorrect, inconsistent, or unreasonable data may be accepted as valid for both the
processing of the claim and as it is included in the indicator calculation.

The Title II and Title XVI processing times were combined for purposes of reporting in
the PAR. Because processing times differ between the two programs, changes in the
mix of cases may impact the combined processing time. Accordingly, if SSA chooses to
report these results together, they should disclose in the PAR the impact of changes in
the mix of cases on the combined processing time. This would result in a more
accurate assessment of how the Agency is meeting its’ goal to deliver high quality,
citizen-centered service.

We noted from a selection of 45 applications that 1 of the 45 Title XVI application dates
was not correctly input into the application date field within MSSICS. Specifically, the
incorrect month was input into MSSICS. Data input errors from source documents may
result in inaccurate or untimely data used to calculate the processing time.




Performance Indicator Audit: Processing Time (A-02-04-14072)                              5
Average Processing Time for Hearings (Days)

         FY 2003 Goal: 352 days
         Actual FY 2003 Performance: 344 days
         SSA met the goal.10

Indicator Background

The OHA administers the nationwide hearings and appeals program for SSA. OHA
includes a nationwide field organization staffed with ALJs who conduct hearings and
make decisions on appeals filed by claimants, their representatives, or providers-of-
service institutions under the Social Security Act.

Following receipt of a request for a hearing (RH), the hearing office (HO) staff will
conduct initial screening and case preparation that include the following tasks:

             •   Acknowledge receipt of the RH.
             •   Establish an HO case control record on the Hearing Office Tracking
                 System (HOTS).
             •   Determine if the RH is a valid request.
             •   Determine if the RH was timely filed.
             •   Determine if the HO has venue, i.e., if the claimant resides within the HO's
                 service area.
             •   Create an HO file.
             •   Request the claim file from the FO if it has not been received.

Upon completion of the above tasks, a hearing will be scheduled. The ALJ hearing
generally includes the following:

             •   Introductions.
             •   Opening statement.
             •   Oaths or affirmations.
             •   Citation of the evidence.
             •   Oral testimony.
             •   Presentation of written or oral argument.
             •   Closing statement.

The ALJ will complete a written decision unless the RH was not filed in a timely manner.
The written decision is the final decision or recommended decision depending on the
circumstances of the case. The ALJ updates HOTS to denote that a decision has been
made on the case. The decision is input into HOTS by the master docket clerk and
mailed to the claimant. The mail date is the end date in the processing time calculation.

10
     SSA’s FY 2003 PAR.


Performance Indicator Audit: Processing Time (A-02-04-14072)                               6
Each of the HOs provides the respective regional office with the total processing days
and dispositions for inclusion in the combined regional processing time calculation. The
HOs send this data through email as a dbase file. The regional offices combine each of
the hearing offices' processing times to obtain the total processing time at the regional
level and send this data through email as a dbase file to the national OHA. The national
OHA combines the regional offices’ data to obtain the overall processing time. (See the
formulas below.)

                                                           Sum of the 12 months (October
Total Processing Time for Hearings                    =    2002 through September 2003) of
                                                           the hearing offices’ processing time.


                                                           Sum of the 12 months (October
     Total Dispositions for Hearings                  =    2002 through September 2003) of
                                                           dispositions for hearings.11



                                                           Total Processing Time for Hearings
     Average Processing Time for                  =                                                M
              Hearings
                                                           Total Dispositions for Hearings

A Plan
Findings

We were unable to recalculate the processing time reported in the PAR. The detailed
data used to calculate this performance indicator was not maintained or archived.

SSA had not documented policies and procedures related to the formal process to
collect, review and make available the performance indicator data to Agency
management. OMB Circulars A-123 and A-127 provide guidance for the retention of
performance indicator data. Documentation describing the automated and manual
controls involved in the calculation and reporting of the performance indicator do not
exist.

We noted from a selection of 45 Medicare case files that 7 of 45 RH dates were not
input into the HOTS Medicare application correctly. Data input errors from source
documents result in inaccurate or untimely data used in processing.

11
  Dispositions are defined as the number of hearing requests processed, including favorable and
unfavorable decisions. Source: Office of Hearings and Appeals FY 2003 Report and Fourth Quarter
Report, p. 3 and Electronic Key Workload Indicator Report, OHA Internal Hearing Office Tracking System
and OHA Case Control System.


Performance Indicator Audit: Processing Time (A-02-04-14072)                                           7
During our testing, we noted that the HOTS application was replaced by the Case
Processing and Management System (CPMS). However, Medicare cases will continue
to be processed through the HOTS application after the implementation of CPMS. The
data reported on the PAR will be reported from two different systems for FY 2004. We
noted the following weaknesses within the HOTS application:

    •   Security incident reports cannot be produced to track the occurrence of
        inappropriate access to the data.
    •   The password parameters do not require a minimum password length, or require
        change of password.
    •   The password parameters are listed in clear text in the password file and are not
        required to be alphanumeric.
    •   User ids are not locked out after a set number of failed login attempts, and a
        password history for the user is not maintained.
    •   There are three students that have supervisor access to the HOTS application.
        This level of access does not follow the least privileged access principle.
    •   Claims entered into HOTS can be re-opened.
    •   An audit trail is not maintained for the HOTS application.

OHA at Falls Church, Virginia maintains a draft contingency plan which is being updated
to address the current weaknesses. The plan has not been approved by SSA
management. In the event of an emergency, the OHA Falls Church, Virginia location
may not be able to recover its critical operations.

Our review of the Windows 2000 system that HOTS resides on identified 28 security
and compliance issues. This review was conducted in accordance with the baseline
established by the SSA Risk Model, National Institute of Standards and Technology
(NIST), and Defense Information Security Agency (DISA). There are 8 issues that were
contrary to the requirements of the SSA Risk Model and 20 other conditions that were
contrary to existing government guidelines from NIST and the DISA Windows 2000
Security Checklist, version 3.1.11.

RECOMMENDATIONS
We recommend SSA:

    1. Maintain the detailed data used to calculate the performance indicator results
       that are reported in the PAR and ensure this data is readily available for
       examination in accordance with OMB Circulars A-123 and A-127.
    2. Maintain documentation that describes how the performance indicator goals were
       established, document the policies and procedures used to prepare and report
       the results of the performance indicators, and keep a complete audit trail.




Performance Indicator Audit: Processing Time (A-02-04-14072)                           8
Specific to the performance indicator, “Average Processing Time for Initial Disability
Claims,” we recommend SSA:

    3. Ensure that SSA personnel do not have the ability, through inappropriate access,
       to directly modify, create or delete the datasets used to calculate the results of
       this indicator.
    4. Maintain all source code for all applications used to calculate the performance
       indicator.
    5. Maintain an audit trail that captures the user id or terminal, date and time of the
       transaction being processed. Policies and procedures should be created to
       review the audit trail for inappropriate access to data or processing of
       transactions.
    6. Disclose the impact on the mix of Title II and Title XVI claims and its impact on
       combined processing time results reported in the PAR.
    7. Ensure the correct data is input into the Title XVI application.

For the recommendations stated below, SSA management should take corrective action
over the HOTS system and ensure that these recommendations are addressed in the
CPMS system. Specific to the performance indicator, “Average Processing Time for
Hearings (Days),” we recommend SSA:

   8. Ensure the correct data is input into the HOTS system.
   9. Strengthen the security internal to the HOTS system to include security incident
      reports to track inappropriate access to data.
  10. Strengthen password parameters in HOTS to require users to change their
      passwords every 60 days, to encrypt the passwords located in the user table, to
      lockout a user after a set number of failed attempts, to create alphanumeric
      passwords, and to maintain a password history.
  11. Reserve supervisory access in HOTS as the highest level of access and be
      granted on a least privileged basis.
  12. Ensure claims that are required to be opened are logged and reviewed by
      management.
  13. Maintain an audit trail that captures the user id or terminal, date and time of the
      transaction being processed. Policies and procedures should be created to
      review the audit trail for inappropriate access to data or processing of
      transactions.
  14. Ensure that the contingency plan is completed and approved by management.
  15. Ensure that Windows 2000 is configured to be in compliance with the SSA Risk
      Model and government guidelines from NIST and the DISA Windows 2000
      Security Checklist, version 3.1.11.

AGENCY COMMENTS AND PwC RESPONSE
The Agency agreed with 10 of the 15 recommendations. In a general response
unrelated to a specific recommendation, SSA stated that it disagreed with the
conclusion that it had not documented polices and procedures related to the formal


Performance Indicator Audit: Processing Time (A-02-04-14072)                             9
process to collect and review performance indicator data, noting several manuals as
sources of such documentation. We agree that SSA management has documented
several technical and user manuals related to the use and processing of SSA
management information. However, SSA was unable to provide policies and
procedures related to the specific processes to collect, review, and provide data for
calculation of the performance indicators audited.

In disagreeing with recommendation 6, SSA stated that disclosing the impact of
combining Title II and Title XVI cases when measuring processing times for disability
claims is not always relevant to overall processing time and such a discussion would not
be appropriate for inclusion in the PAR. It added that it would report in the PAR when
the workload mix changes significantly enough to impact processing time overall. We
believe that the differences between the two programs processing times are relevant
and that the reader would be better informed if SSA disclosed the mix of Title II and Title
XVI claims and its impact on combined processing time results reported in the PAR.

In disagreeing with recommendations 8 through 11, the Agency stated that HOTS has
been replaced with CPMS, so the recommendations focused on strengthening HOTS
are moot. Additionally, SSA stated that CPMS has implemented additional edits and
that it is controlled by Top Secret Security profiles, which help to ensure that CPMS
avoids the type of weaknesses noted in HOTS.

HOTS was the focus of our audit work of the hearings processing time indicator since it
was the system used during our audit period. While CPMS will measure the majority of
the hearings claims in the future, HOTS will continue to be used in the near-term to
track OHA’s Medicare workload. Recognizing the results for this indicator will be
calculated using both HOTS and CPMS in the future, we believe that SSA management
should take corrective action to strengthen the HOTS system and ensure that these
recommendations are addressed in the CPMS system. SSA should take the steps
necessary to ensure that the data collected to measure and report on hearings
processing time is accurate and properly secured.

Finally, in agreeing with recommendation 15, SSA questioned whether it was required
to adhere to the DISA standards. We recognize that there has not been a directive for
non-Department of Defense agencies to follow DISA standards. However, the DISA
guidelines are government industry recognized best practices for securing information
systems environments. Accordingly, we recommend that SSA ensure that the Windows
2000 environment is configured to be in compliance with the SSA Risk Model and
government guidelines from NIST and the DISA Windows 2000 Security Checklist,
Version 3.1.11.

The full text of the Agency’s comments is in Appendix D.




Performance Indicator Audit: Processing Time (A-02-04-14072)                             10
                                                Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Process Flowcharts

APPENDIX D – Agency Comments




Performance Indicator Audit: Processing Time (A-02-04-14072)
                                                                  Appendix A
Acronyms
 ALJ            Administrative Law Judge
 CE             Consultative Exam
 CPMS           Case Processing Management System
 CR             Claim Representative
 DDS            Disability Determination Services
 DI             Disability Insurance
 DISA           Defense Information Security Agency
 FO             Field Office
 FY             Fiscal Year
 GAO            Government Accountability Office
 GPRA           Government Performance and Results Act
 HO             Hearing Office
 HOTS           Hearing Office Tracking System
 MAR            Monthly Activity Report
 MBR            Master Beneficiary Record
 MCS            Modernized Claims System
 MIICR          Management Information Initial Claims Record
 MSSICS         Modernized Supplemental Security Income Claims Systems
 NDDSS          National Disability Determination Service System
 NIST           National Information Security Technology
 OHA            Office of Hearings and Appeals
 OMB            Office of Management and Budget
 OSM            Office of Strategic Management
 PAR            Performance and Accountability Report
 PART           Program Assessment Rating Tool
 RH             Request for Hearing
 SSA            Social Security Administration
 SSACCS         Social Security Administration Claims Control System
 SSI            Supplemental Security Income
 SSICR          Supplemental Security Income Claims Report
 SSIPT          Supplemental Security Income Processing Time
 SSIRMS         Supplemental Security Income Records Maintenance System
 SSR            Supplemental Security Record
 TSC            Tele-Service Center
 WMS            Work Management System


Performance Indicator Audit: Processing Time (A-02-04-14072)
                                                                      Appendix B
Scope and Methodology
We updated our understanding of the Social Security Administration’s (SSA)
Government Performance and Results Act (GPRA) processes. This was completed
through research and inquiry of SSA management. We also requested SSA to provide
various documents regarding the specific programs being measured as well as the
specific measurement used to assess the effectiveness and efficiency of the related
program.

Through inquiry, observation, and other substantive testing, including testing of source
documentation, we performed the following, as applicable:

    •   Reviewed prior SSA, Government Accountability Office, and other reports related
        to SSA GPRA performance and related information systems.
    •   Met with the appropriate SSA personnel to confirm our understanding of each
        individual performance indicator.
    •   Flowcharted the processes. (See Appendix C).
    •   Tested key controls related to manual or basic computerized processes (e.g.,
        spreadsheets, databases, etc.).
    •   Conducted and evaluated tests of the automated and manual controls within and
        surrounding each of the critical applications to determine whether the tested
        controls were adequate to provide and maintain reliable data to be used when
        measuring the specific indicator.
    •   For those indicators with results that SSA determined using computerized data,
        we assessed the completeness and accuracy of that data to determine the data's
        reliability as it pertains to the objectives of the audit.
    •   Identified and extracted data elements from relevant systems and obtained
        source documents for detailed testing selections and analysis.
    •   Identified attributes, rules, and assumptions for each defined data element or
        source document.

As part of this audit, we documented our understanding, as conveyed to us by Agency
personnel, of the alignment of the Agency’s mission, goals, objectives, processes, and
related performance indicators. We analyzed how these processes interacted with
related processes within SSA and the existing measurement systems. Our
understanding of the Agency’s mission, goals, objectives, and processes were used to
determine if the performance indicators being used appear to be valid and appropriate
given our understanding of SSA’s mission, goals, objectives and processes. We
followed all performance audit standards. In addition to the steps above, we specifically
performed the following to test the indicators included in this report:




Performance Indicator Audit: Processing Time (A-02-04-14072)                          B-1
AVERAGE PROCESSING TIME FOR INITIAL DISABILITY CLAIMS
(DISABILITY INSURANCE AND SUPPLEMENTAL SECURITY INCOME)

    •   Audited the design and effectiveness of the SSA internal controls and the
        accuracy and completeness of the data related to the following areas:
             9 Ensured that the Date of Entitlement, Date of Filing, or Application Date
                 were accurately posted to the Master Beneficiary Record (MBR) or
                 Supplemental Security Record (SSR) by reviewing 45 initial disability
                 insurance and supplemental security income applications.
             9 Ensured that the Disability Decision Date was accurately posted to the
                 MBR or SSR by reviewing 45 SSA 831-C3 forms within the case folders.
             9 Observed the input of the Date of Entitlement, Date of Filing, or
                 Application Date in the field office.
             9 Observed the input of the closure date in the Disability Determination
                 Services.
    •   Used a programming specialist to determine the adequacy of the programming
        logic used by SSA to calculate the processing time for the Title II and Title XVI
        initial disability claims.
    •   Recalculated the Title II processing time for June 2003 and compared it to the
        Title II processing time reported that month.

AVERAGE PROCESSING TIME FOR INITIAL HEARINGS (DAYS)

    •   Audited the design and effectiveness of the SSA internal controls and the
        accuracy and completeness of the data related to the following areas:
           9 Ensured that the request for hearing date and mail date were accurately
              posted to the Hearings Office Tracking System (HOTS) by reviewing
              45 Administrative Law Judge Medicare Case Folders for the request for
              hearing date and 45 Medicare Transmittal of Decision or Dismissal by
              Office of Hearings and Appeal located on form HA-505-1U3 for the mail
              date.
           9 Observed the input of request for hearing date and mail date in the
              Medicare hearing office.
           9 Completed application control reviews over HOTS.
           9 Completed a general computer control review as it relates to HOTS.
    •   Determined the adequacy of the programming logic used by SSA to calculate the
        processing time for the hearings.




Performance Indicator Audit: Processing Time (A-02-04-14072)                            B-2
                                                                                                                                                                                                                                         Appendix C

Flowchart of Average Processing Time for Initial Disability Claims (DI
and SSI)
                                                                                                                      C R in te rv ie w s
                              C la im a n t c o n ta c ts                                                              c la im a n t v ia
                                                                                                                                                          Is c la im a n t
                              S S A v ia F O v is it,                    C a n C R in te rv ie w                     te le c la im o r in -                                                    D o e s c la im a n t
       START                                                              c la im a n t to d a y ?
                                                                                                        Yes                                             e lig ib le fo r T II     No                                       No               STOP
                              m a il, o r p h o n e c a ll                                                       o ffic e a p p o in tm e n t,                                                 in s is t o n filin g ?
                                                                                                                                                         a n d /o r T X V I
                                 to F O o r T S C                                                                 firs t v e rify in g n o n -
                                                                                                                    m e d ic a l is s u e s

                                                                                   No                                                                                           Yes


                                                                        S e t u p a te le c la im
                                                                              o r in -o ffic e
                                                                            a p p o in tm e n t




                                                                                                        Yes


                                                                                                                                              If p o s s ib le , m a k e
     C o m p le te D I
                                                                                                                                                a n d e n te r n o n -
  a p p lic a tio n fo rm s                    R e v ie w n o n -                                  D e te rm in e                                                                         Is th is a n o n -                    A (T o p a g e
                                                                                                                                                     m e d ic a l                                                        Yes
    u s in g M C S o r                        m e d ic a l is s u e s                        e ffe c tiv e filin g d a te                                                                m e d ic a l d e n ia l?                    2)
                                                                                                                                             d e te rm in a tio n in to
         M S S IC S
                                                                                                                                              M C S o r M S S IC S


                                                                                                     No



                                                                                           D D S in p u ts re c e ip t                       D D S g a th e rs a n d                                                                   D D S m akes a
                                                                                                                                                                                            If m e d ic a l
  C re a te m e d ic a l                                                                        of case on                                    re v ie w s m e d ic a l                                                             d e te rm in a tio n a n d
                                           S e n d fo ld e r to                                                                                                                       in fo rm a tio n is n o t
  fo ld e r w ith fo rm                                                                      N D D S S , w h ic h                            e v id e n c e in o rd e r                                                            e n te rs th e m e d ic a l
                                                  DDS                                                                                                                                 s u ffic ie n t, a C E is
       S S A -8 3 1                                                                          in te rfa c e s w ith                          to m a k e a m e d ic a l                                                               in fo rm a tio n in th e
                                                                                                                                                                                            s c h e d u le d
                                                                                              S S A s y s te m s                                d e te rm in a tio n                                                                       NDDSS




                                                                                                                                                                                                                                        B (T o p a g e
                                                                                                                                                                                                                                             2)




Performance Indicator Audit: Processing Time (A-02-04-14072)                                                                                                                                                                                                     C-1
Flowchart of Average Processing Time for
Initial Disability Claims (DI and SSI) cont.
                                                  DDS inputs
                                                   medical
   A From (Page
                                               determination as
        1)
                                               reported on Form
                                                   SSA-831


                                              Claim is approved
                                              or denied. Medical
                                                 portion of the
                                               determination is
                                                 adjudicated.




                                               Case is closed on
                                                 NDDSS and a
                                                determination is
                                              transferred to SSA
                                                    systems




                                              Folder is sent back
                                                    to FO




  Adjudicate non-
                                               CR input non-med
 medical portion of
                            No                determination prior to
 claim via MCS or                            sending folder to DDS?
     MSSICS




                                                 Folder is filed




                                                    C (Title
     A (From                 B (Title II
                                                     XVI to
     page 1)                to page 3)
                                                    page 3)




Performance Indicator Audit: Processing Time (A-02-04-14072)           C-2
Flowchart of Average Processing Time for Initial Disability Claims
(DI and SSI) cont.
                                                                                                                                                                                                    C ( T it le
       B ( T it le I I
                                                                                                                                                                                                   X V I fro m
    fro m p a g e 3 )
                                                                                                                                                                                                    page 3)



    M C S u p d a te s
                                                               M I I C R w r it e s d a t a                                                                                                  S S R is u p d a t e d
 W M S . S S A -1 4 1 8        M IIC R r e a d s in fo .
                                                                  f o r c o m p le t e d                                                                                                   w it h I D D a n d c la im
 (s c re e n ) u p d a te s    F ro m W M S a n d /o r
                                                               c la im s in t o M I I C R                                                                                                   d a ta is r o u te d to
    S S A C C S w it h               SSACCS                                                                                                                                                                                        ZCXM AS
                                                                     M a s t e r F ile                                                                                                     E x c e p t io n C o n t r o l
 c la im in f o r m a t io n                                                                                                                                                                                                 R e c ir c u la t e s t h e
                                                                                                                                                                                                                              d a t a u n t il in it ia l
                                                                                                                                                                    Z C D U C IS                                                  c la im s a r e
                                                               M I I C R E d it c r e a t e s                                                                     C o n ta in s IC                                                 c o m p le t e
                                                                f ile o f c o m p le t e d                                                                   tr a n s a c tio n s fr o m
                                                                   c la im s ( w e e k ly                                                                          S S I u p d a te
                                                                           ru n )                                                                                  o p e r a t io n s                                           Z C S T A T S is
                                                                                                                                                                                                                             g e n e ra te d w h e n
                                                                                                                                                                                                                             E n d P r o c e s s in g
                                                                     M IIC R C a lc                                                                                                                                           D a t e is p o s t e d /
     M I I C R S w it c h                                                                                                                                                                                                           e n te re d
                                                                        c o m p u te s
  c r e a te s m o n th ly
                                                                 p r o c e s s in g t im e
 f ile o f c o m p le t e d
                                                                a n d d e t e r m in e s if
           c la im s
                                                                c r it e r ia h a s b e e n
                                                                m e t ( m o n th ly r u n )
                                                                                                                                                                                                                             Z S S I C P T M o n t h ly
                                                                                                                                                                                                                            f ile o f E O L r e c o r d s
                                                                 M IIC R S o rt s o rts                                                                                                                                          f o r d e liv e r y t o
    E n d o f L in e                                                     d a ta b y                                                                                                                                                    S S IC R
   P a r a s e le c t io n                                     c o m p o n e n t, o ffic e ,
       R e p o rts                                              e tc . ( m o n th ly r u n )




                                                                  M IIC R S u m m a ry                                                                                                                                        S S I C R T it le X V I
                                                                p ro d u c e s a re c o rd                                                                                                                                       p r o c e s s in g
                                                                   o f s u m m a r iz e d
                                                                   num ber of days
                                                                    a n d c o u n ts fo r
                                                                  e a c h p r o c e s s in g
                                                               t im e f o r e a c h o f f ic e




                                 I n it ia l D is a b ilit y                                                                                                                                                                    E n d o f L in e
                                                                                                                                                                             P r o c e s s in g T im e
                                 C la im s R e p o r t -                                         GETRSDHI                                   G E T S S IC R                                                                     P a r a s e le c t io n
                                                                                                                                                                                     R e p o rt
                               P r o c e s s in g T im e s                                                                                                                                                                         R e p o rts




                                                                                                                C a lc u la t io n o f
                                                                                                               in it ia l d is a b ilit y
                                                                                                            c la im s p r o c e s s in g
                                                                                                                  tim e ( d a y s )




Performance Indicator Audit: Processing Time (A-02-04-14072)                                                                                                                                                                                                C-3
Average Processing Time for Initial Disability Claims (DI and SSI)
  • Claimant contacts SSA through a field office (FO) visit, mail, or phone call
     to the FO or tele-service center (TSC).
  • Through one of the above methods, SSA determines if the claimant is
     eligible for Title II or Title XVI disability benefits.
  • If the claimant is not eligible for disability benefits, this process stops.
     However if the claimant is eligible for disability benefits, their information is
     recorded on the application forms and input into the Modernized Claims
     System (MCS) for Title II benefits or into the Modernized Supplemental
     Security Income Claims System (MSSICS) for Title XVI benefits.
  • The claimant’s information is reviewed for non-medical eligibility and the
     effective filing date is determined. Also, a non-medical determination is
     made if possible and entered into the appropriate application.
  • A medical folder is created with form SSA-831 and is sent to the DDS.
  • Upon receipt, the DDS inputs the case on National Disability
     Determination Service System (NDDSS), which interfaces with the
     appropriate Title II and Title XVI applications.
  • DDS gathers and reviews medical evidence to make a medical
     determination. Additional medical evidence is obtained from the claims
     examiner if needed.
  • DDS makes a medical determination and inputs the information into
     NDDSS and on form SSA-831.
  • The claim is approved or denied as appropriate and the medical portion of
     the determination is adjudicated.
  • The case is closed on NDDSS and the medical determination is
     transferred to the appropriate Title II and Title XVI applications.
  • If the non-medical determination was not input prior to the DDS review,
     that will occur.
  • The medical folder is filed.
  • For Title II claims, MCS updates the Work Management System (WMS)
     and form SSA-1418 updates the SSA Claims Control System (SSACCS)
     with claim information.
  • Management Information Initial Claims Record (MIICR) reads the claims
     information from WMS and SSACCS.
  • MIICR writes the data for completed claims to the MIICR master file.
  • MIICR Edit creates a file of completed claims on a weekly basis.
  • MIICR Calculation computes the processing time and determines if the
     criteria has been met on a monthly basis.
  • MIICR Sort sorts the data by component, office, etc. on a monthly basis.
  • MIICR Summary produces a record of the summarized number of days
     and counts for each processing time for each office.
  • The Initial Disability Claims Report that includes overall processing time
     for Title II claims is produced on a monthly basis.
  • For Title XVI claims, the SSR is updated with the initial determination date
     and the claim is routed to the Exception Control.


Performance Indicator Audit: Processing Time (A-02-04-14072)                       C-4
    •   The ZCXMAS file is created to re-circulate the data until the initial claims
        are completed.
    •   The ZCSTATS file is created when the end processing date is posted.
    •   The ZSSICPT file is created to delivery the end of the line records or
        completed claims to SIICR.
    •   SSI Claims Report (SSICR) calculates the processing time and creates
        the processing time report.
    •   On a monthly basis, the overall processing time and total counts on the
        Initial Disability Claims Report and Processing Time Report are input into
        an Excel spreadsheet.
    •   On an annual basis, the monthly processing times for Title II and Title XVI
        are summed and the total monthly counts for Title II and Title XVI are
        summed. The total processing time is divided by the count to produce the
        average number of disability claims.




Performance Indicator Audit: Processing Time (A-02-04-14072)                     C-5
Flowchart of Average Processing Time for
Hearings (Days)
   Determination
    received by
 claimant (Initial or
 Reconsideration)




      Request
                         No                  End
      hearing?


        Yes

 Input into HOTS:
   When request
    received at
  Hearing Office

                                                      Dismissed
                          No
       Will
   Administrative                                                                    Written decision
    Law Judge                                                                        sent to claimant
     conduct
                                                    Pay on Record
     hearing?
                           No                      (Expedite without
                                                       hearing)
        Yes


  Hearing is held
   and case is
    explained




                                                                                    Decision letter and
                                                                  Clerk enters
Administrative Law               Judge enters                                          a copy of the
                                                                disposition date
  Judge makes                    decision into                                      Administrative Law
                                                               and mail date into
    decision                        HOTS                                            Judge’s decision is
                                                                     HOTS
                                                                                           sent




                                                               Combine MAR for
Regional database               Monthly Activity                                    MAR posted to the
                                                                all locations to
 files sent to OHA                  Report                                             Intranet for
                                                                generate Case
 and combined in                 produced by                                        Regional Offices to
                                                                Load Analysis
        HOTS                        HOTS                                                 review
                                                                     Report




           Performance Measure Calculation:
Calendar Days from Hearing Request to Decision Mail Date
              Total Number of Dispositions




Performance Indicator Audit: Processing Time (A-02-04-14072)                                              C-6
Average Processing Time for Hearings (Days)
  • The claimant receives the determination.
  • The claimant may or may not request a hearing over the determination.
  • If the claimant requests a hearing, the request for hearing date is entered
     into the HOTS application.
  • The ALJ may or may not conduct a hearing.
  • If the ALJ does not conduct a hearing, the claim is paid or dismissed.
  • Claimant receives the decision of the non-hearing in writing.
  • If a claimant does not receive a decision, a hearing is conducted by the
     ALJ.
  • ALJ makes a decision.
  • ALJ enters the decision into HOTS.
  • The clerk enters the disposition date and mail date into HOTS.
  • The decision letter is sent to the claimant.
  • The HOTS files from the regional office are sent to OHA and combined
     into HOTS.
  • The Monthly Activity Report (MAR) is produced by HOTS for the regional
     office.
  • The case load analysis report is processed by HOTS from the combination
     of the monthly MARs provided by each of the regional offices. The case
     load analysis contains the calculation of the processing time.
  • The MAR is posted to the SSA Intranet for review by the regional offices.




Performance Indicator Audit: Processing Time (A-02-04-14072)                C-7
                                                               Appendix D

Agency Comments




Performance Indicator Audit: Processing Time (A-02-04-14072)
                                           SOCIAL SECURITY

MEMORANDUM                                                                                      33296-24-1160

Date:      October 1, 2004                                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Acting Inspector General
From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "Performance Indicator Audit: Processing
           Time" (A-02-04-14072)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff on extension 54636.


           Attachment:
           SSA Response




           Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)                     D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “PERFORMANCE INDICATOR AUDIT: PROCESSING TIME"
(A-02-04-14072)


Thank you for the opportunity to review and comment on the draft report. We agree with
the recommendations that improved documentation and identification of all processes
used to compute the reported data are necessary.

We disagree with the statement on page 4 that “SSA had not documented policies and
procedures related to the formal process to collect, review, and make available the
performance indicator data to Agency management.” The Management Information
Manual (MIM) II Chapters 8000-9000 include procedures for the field office (FO)
processing time and the MIM IV Chapters 4100-4200 include procedures for the
Disability Determination Services (DDS) processing time under the Management
Information Initial Claims Record (MIICR) and the Supplemental Security Income
Claims Report systems. Under the Social Security Unified Management System
(SUMS), we have documented procedures for Title XVI in the Supplemental Security
Income Processing Time Users Guide (updated March 2004). The Agency is in the
process of converting Title II from MIICR to SUMS and will include the documented
procedures under SUMS when the conversion has been completed.

We disagree with the statements on page 5, paragraph 4, which support the
recommendation to report separate processing times for Title II and Title XVI. The
paragraph states that "processing times differ between the two programs." Were there
programmatic or legal differences, we would agree that separate reporting would be
relevant. However, the disability decision criteria, procedures, and evidentiary
requirements are fundamentally the same for both programs. Thus, that there may be
differing processing times between the titles is coincidental and irrelevant. Accordingly,
we do not agree that providing details in the Performance and Accountability Report
(PAR) about the mix of cases used in the calculation is relevant.

Our responses to the specific recommendations are provided below.

Recommendation 1

Maintain the detailed data used to calculate the performance indicator results that are
reported in the PAR and ensure this data is readily available for examination in
accordance with Office of Management and Budget (OMB) Circulars A-123 and A-127.

Response

We agree. We are currently evaluating the costs involved in maintaining data beyond
what the Agency already stores to support its operations. Storing additional data and,



Performance Indicator Audit: Processing Time (A-02-04-14072)                             D-2
where necessary, retired legacy systems, to replicate data outcomes may prove to be too
costly. If that is the case, alternatives will be explored.

Recommendation 2

Maintain documentation that describes how the performance indicator goals were
established, document the policies and procedures used to prepare and report results of
the performance indicators, and keep a complete audit trail.

Response

We agree. We are currently determining the best approach for maintaining documentation
about how performance indicators and related goals are established.

Recommendations--Performance Indicator:
Average Processing Time for Initial Disability Claims

Recommendation 3

Ensure that SSA personnel do not have the ability, through inappropriate access, to
directly modify, create or delete the datasets used to calculate the results of this indicator.

Response

We agree. Work within the Standardized Security Profile Project (SSPP) has ensured
that only an authorized batch job submitted through Control-M can directly modify,
create, or delete the datasets used to calculate processing time for SSI Initial Disability
Claims. SSPP work continues as SSA addresses remaining user accesses to ensure least
privilege is exercised.

Recommendation 4

Maintain all source code for all applications used to calculate the performance indicator.

Response

We agree. ENDEVOR currently houses and maintains all source code related to this
measure.




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)         D-3
Recommendation 5

Maintain an audit trail that captures the user id or terminal, date and time of the
transaction being processed. Policies and procedures should be created to review the
audit trail for inappropriate access to data or processing of transactions.

Response

We agree. Auditing features will be activated on all update access secondary User IDs
(the only User IDs that will allow update access) as we further refine update access
privileges.

Recommendation 6

Disclose the impact on the mix of Title II and Title XVI claims and its impact on
combined processing time results reported in the PAR.

Response

We disagree. The workload mix would not always be relevant to the overall processing
time and would not be appropriate to include in the PAR. However, when the trend in
the workload mix changes significantly enough to impact processing time overall, we
will report the results in the PAR.

Recommendation 7

Ensure the correct data is input into the Title XVI application.

Response

We agree. The Agency currently takes proactive steps to ensure claims entered through
the normal application process are correct. There are FO and DDS procedures for the
processing and quality review of the initial disability claims for both Titles II and XVI.
For example, the DDSs have documented procedures for preparing the final
determination in POMS DI 26500 and documented guidelines for providing quality
review in POMS DI 30001.

Recommendations--Performance Indicator: Average Processing Times for Hearings
(Days)

Recommendation 8

Ensure the correct data is input into the HOTS system.




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)      D-4
Response

We disagree. Since the Hearing Office Tracking System (HOTS) has been replaced with
the Case Processing and Management System (CPMS), this recommendation is moot.
Although CPMS cannot guarantee correct data input of 100 percent, CPMS has
implemented additional edits that were not previously part of the HOTS system. These
edits should better ensure the quality of the data within the CPMS database.

Recommendation 9

Strengthen the security internal to the HOTS system to include security incident reports
to track inappropriate access to data.

Response

We disagree. Since HOTS has been replaced with CPMS, this recommendation is moot.
We would note that access to CPMS is controlled by Top Secret Security profiles.
Individual profiles are managed by SSA component security officials. Security violations
are written to an audit tracking file. These records include identifying information on the
user who attempted access and the SSN they were trying to access.

Although HOTS will continue to be used for tracking OHA’s Medicare workload, that is
an interim workload, which we anticipate being transferred to the Centers for Medicare &
Medicaid Services (CMS) by the end of fiscal year (FY) 2005.

Recommendation 10

Strengthen password parameters in HOTS to require users to change their passwords
every 60 days, to encrypt the passwords located in the user table, to lockout a password
after a set number of failed attempts, to create alphanumeric passwords, and to maintain a
password history.

Response

See response to Recommendation 9. Again, we note that CPMS utilizes SSA’s
Enterprise Security Interface (ESI). The issues raised are addressed by ESI.

Recommendation 11

Reserve supervisory access in HOTS as the highest level of access and be granted on a
least privileged basis.

Response

See response to Recommendation 9.



Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)     D-5
Recommendation 12

Ensure claims that are required to be opened are logged and reviewed by management.

Response

We agree. CPMS adheres to the Agency's standards for security, access and passwords.
Accordingly, the concern stated above is addressed by using these standards. Further, we
note however, for non-Medicare cases, CPMS does not allow reopening of cases.

Recommendation 13

Maintain an audit trail that captures the user id or terminal, date and time of the
transaction being processed. Policies and procedures should be created to review the
audit trail for inappropriate access to data or processing of transactions.

Response

See responses to Recommendations 5 and 12.

Recommendation 14

Ensure that the contingency plan is completed and approved by management.

Response

We agree. As the report notes, there is a draft plan maintained by OHA, Falls Church. It
is currently in the review process.

Recommendation 15

Ensure that Windows 2000 is configured to be in compliance with the SSA Risk Model
and government guidelines from NIST and the DISA Windows 2000 Security Checklist,
Version 3.1.11.

Response

We agree in part. We agree that WINDOWS 2000 should be configured to be in
compliance with the Risk Model. SSA’s monitoring program scans for noncompliance
and configurations are corrected, where needed. We will re-review National Institute of
Standards and Technology (NIST) Guidelines ensure that we have incorporated all
practicable elements into our Risk Model.

Regarding the inclusion of Defense Information Systems Agency (DISA) guides in the
recommendation, DISA is charged with providing total information systems management
for the Department of Defense (DoD). Its charter has always been focused on DoD


Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)     D-6
service. There has not been a directive for non-DoD agencies to follow DISA standards.
SSA complies with all regulations and guidance issued by NIST and OMB. These are the
requirements that guide civilian agencies. SSA will continue to comply with all
directives for information systems security management issued for the civilian sector.
Occasionally, SSA elects to follow a DISA standard and adopts it as a best practice for
the Agency. But, this is not required; it is just an example of SSA’s diligence in
protecting systems and data.


[SSA also provided technical comments, which have been addressed in this
report, as needed.]




Performance Indicator Audit: Employment for Disabled Beneficiaries (A-02-04-14068)   D-7
                   Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                     Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                     Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                                Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
